Department of Homeland Security
   Ofﬁce of Inspector General

              Major Management Challenges 

        Facing the Department of Homeland Security 





OIG-10-16                                    November 2009
                                                                Office of Inspector General

                                                                U.S. Department of Homeland Security
                                                                Washington, DC 20528




Major Management Challenges Facing the Department of
               Homeland Security

The creation of the Department of Homeland Security (DHS) on March 1, 2003, was the
most significant reorganization of the federal government bringing together twenty-two
federal agencies in response to the aftermath of 9/11. Since its inception, the Department of
Homeland Security performs a broad range of activities across a single driving mission to
secure America from the entire range of threats that we face.

Six years later, the department is moving beyond operating as an organization in transition to
a department diligently working to protect our borders and critical infrastructure, preventing
dangerous people and goods from entering our country, and recovering from natural disasters
effectively. However, while much progress has been done, the department still has much to
do to establish a cohesive, efficient, and effective organization.

The major management challenges we identify facing DHS, including department-wide and
operational challenges, are a major factor in setting our priorities for audits, inspections, and
evaluations of DHS’ programs and operations. As required by the Reports Consolidation Act
of 2000, Pub.L.No. 106-531, we update our assessment of management challenges annually.
We have made recommendations in many, but not all, of these areas as a result of our
reviews and audits of departmental operations. Where applicable, we have footnoted specific
reports that require DHS’ action.

We have identified the following major management challenges:
      • Acquisition Management
      • Information Technology Management
      • Emergency Management
      • Grants Management
      • Financial Management
      • Infrastructure Protection
      • Border Security
      • Transportation Security
      • Trade Operations and Security


                                                                                                       1
Since the major management challenges have tended to remain the same from year to year,
we developed scorecards to distinguish the department’s progress in selected areas. Our first
scorecard, published in the Semiannual Report to Congress, October 1, 2006 – March 31,
2007, included an assessment of DHS’ acquisition function. This report features scorecards
for acquisition management, information technology management, emergency management,
grants management, and financial management.

We based the ratings on a four-tiered scale ranging from limited to substantial progress 1 :
      •	 Limited: While there may be plans to address critical success factors, few if any
         have been implemented;
      •	 Modest: While some improvements have been made, many of the critical success
         factors have not yet been achieved;
      •	 Moderate: Many of the critical success factors have been achieved; and
      •	 Substantial: Most or all of the critical success factors have been achieved.

These five scorecards are summarized in Figure 1 and incorporated in our discussion of the
major management challenges.

Figure 1.


           DHS’ OVERALL PROGRESS IN SELECTED AREAS
    Ratings are based on a four-tiered scale: Limited, Modest, Moderate, and
    Substantial.
                                                      FY 2008             FY 2009
                                                      Modest Progress            Moderate Progress

    Acquisition Management

                                                      Moderate Progress          Moderate Progress

    Information Technology
    Management

                                                      Moderate Progress          Moderate Progress

    Emergency Management




1
  Financial Management Scorecard uses different criteria to assess limited to substantial progress, and is shown
in the Financial Management section of the report.


                                                                                                               2
         DHS’ OVERALL PROGRESS IN SELECTED AREAS
 Ratings are based on a four-tiered scale: Limited, Modest, Moderate, and
 Substantial.
                                                   FY 2008             FY 2009
                                                                     Modest Progress
 Grants Management                                    N/A


                                             Modest Progress         Modest Progress
 Financial Management



ACQUISITION MANAGEMENT
DHS relies on goods and services contractors to help fulfill many of its critical mission areas.
As such, effective acquisition management is vital to achieving DHS’ overall mission.
Acquisition management is much more than simply awarding a contract. It requires a sound
management infrastructure to identify mission needs; develop strategies to fulfill those needs
while balancing cost, schedule, and performance; and ensure that contract terms are
satisfactorily met. A successful acquisition process depends on the following key factors:
   •	 Organizational Alignment and Leadership—ensures appropriate placement of the
      acquisition function, defines and integrates roles and responsibilities, and maintains
      clear, strong executive leadership;
   •	 Policies and Processes—partnering with internal organizations, effective use of
      project management approaches, and establishment of effective internal controls;
   •	 Acquisition Workforce—commitment to human capital management, integration and
      alignment of human capital approaches with organizational goals, and investment in
      people; and
   •	 Knowledge Management and Information Systems—tracking of key acquisition data,
      analysis of supplies and services spending, and data stewardship.

Acquisition Management Scorecard

The following scorecard illustrates areas where DHS improved its acquisition management
practices, as well as areas where it continues to face challenges. We based our assessment on
our recent audit reports, Government Accountability Office (GAO) reports, congressional
testimony, and our broader knowledge of the acquisition function.

Based on the consolidated result of the four acquisition management capability areas, DHS
made “moderate” overall progress in the area of Acquisition Management.



                                                                                               3
                ACQUISITION MANAGEMENT SCORECARD
                                                                   Modest Progress
Organizational Alignment and Leadership

DHS made “modest” progress in improving the acquisition program’s organizational
alignment and defining roles and responsibilities. The department continues to depend
on a system of dual accountability and collaboration between the chief procurement
officer and the component heads, which may sometimes create ambiguity about who is
accountable for acquisition decisions. However, DHS maintains that the dual authority
model works because the Office of the Chief Procurement Officer (OCPO) retains central
authority over all contracting through its contracting officer warrant program and Federal
Acquisition Certification - Contracting program. According to the department, the heads
of contracting activities and contracting officers function independently of component
influence as their authority flows from OCPO rather than the component. DHS also
expects its proposed Acquisition Line of Business Integration and Management Directive
to clarify existing authorities and relationships within individual components and the
department’s Chief Procurement Officer.

According to the Government Accountability Office (GAO), 2 DHS has not effectively
implemented or adhered to its investment review process, which requires executive
decision making at key points in an investment’s life cycle. DHS has not provided the
oversight needed to identify and address cost, schedule, and performance problems in its
major investments due to a lack of involvement by senior management officials as well as
limited monitoring and resources.

Although FEMA has reorganized its acquisition function to operate strategically, 3 FEMA
program offices have not adequately integrated the acquisition function into their
decision-making activities. Planning strategically requires that the Acquisition
Management Division partner with other FEMA components and assist them in assessing
internal requirements and the impact of external events. FEMA’s Acquisition
Management Division has begun to work more closely with program offices to better
manage the acquisition process, monitor and provide oversight to achieve desired
outcomes, and employ knowledge-based acquisition approaches.

                                                                   Moderate Progress
Policies and Processes

DHS made “moderate” progress in developing and strengthening its policies and
processes related to acquisition management. Although the department has put a great

2
  GAO-09-29, Department of Homeland Security: Billions Invested in Major Programs Lack Appropriate 

Oversight, November 2008. 

3
  DHS-OIG, FEMA's Implementation of Best Practices in the Acquisition Process, (OIG-09-31, February 2009). 



                                                                                                          4
                ACQUISITION MANAGEMENT SCORECARD
deal of effort into improving its processes and controls over awarding, managing, and
monitoring contract funds, it still needs to do more.
According to a May 2009 report by the GAO, 4 DHS provided guidance on award fees 5 in
its acquisition manual, but individual contracting offices developed their own approaches
to executing award fee contracts that were not always consistent with the principles in the
Office of Management and Budget’s guidance on award fees or among offices within
DHS. In addition, DHS has not developed methods for evaluating the effectiveness of an
award fee as a tool for improving contractor performance. FEMA also needs to
accelerate its planned acquisition process improvements for awarding, managing,
monitoring, tracking, and closing-out contracts. 6

DHS is making progress in the oversight of its services contracts. As of March 2009, all
DHS professional services contracts greater than $1 million will undergo a mandatory
review before a new contract is awarded or an existing contract is renewed to ensure that
proposed contract awards do not include inherently governmental functions or impact
core functions that must be performed by federal employees. DHS expects this additional
review to add a new level of rigor to the DHS contracting process.

                                                                   Moderate Progress
Acquisition Workforce

DHS made “moderate” progress in recruiting and retaining a workforce capable of
managing a complex acquisition program, but continues to face workforce challenges
across the department. An April 2009 report by the GAO indicated that the Coast Guard
filled 717 of its 855 military and civilian personnel positions in the acquisition branch 7
and planned to expand its acquisition workforce in FY 2011. However, some of its
unfilled positions are core acquisition positions such as contracting officers and
specialists, program management support staff, and engineering and technical specialists.
Although FEMA has improved acquisition training and greatly increased the number of
acquisition staff, it still needs to better prepare its acquisition workforce for catastrophic
disasters. 8



4
  GAO-09-630, Federal Contracting: Guidance on Award Fees Has Led to Better Practices but is Not 

Consistently Applied, May 2009. 

5
  An award fee is an amount of money that a contractor may earn in whole or in part by meeting or exceeding 

subjective criteria stated in an award fee plan. 

6
  DHS-OIG, Internal Controls in the FEMA Disaster Acquisition Process, (OIG-09-32, February 2009); DHS­
OIG, Challenges Facing FEMA's Disaster Contract Management, (OIG-09-70, May 2009); DHS-OIG, FEMA's 

Acquisition of Two Warehouses to Support Hurricane Katrina Response Operations, (OIG-09-77, June 2009); 

DHS-OIG, FEMA's Temporary Housing Unit Program and Storage Site Management, (OIG-09-85, June 2009). 

7
  GAO-09-620T, Coast Guard: Update on Deepwater Program Management, Cost, and Acquisition Workforce, 

April 2009.

8
  DHS-OIG, Challenges Facing FEMA's Acquisition Workforce, (OIG-09-11, November 2008). 



                                                                                                          5
               ACQUISITION MANAGEMENT SCORECARD

In its response to our November 2008 management challenges report, DHS highlighted
headquarters-level initiatives for building and retaining its acquisition workforce 9 . For
example, DHS centralized recruitment and hiring of acquisition personnel, established the
Acquisition Professional Career Program to hire and mentor procurement interns, created
a tuition assistance program, and structured rotational and development work
assignments. However, DHS needs time to complete all of these new initiatives. In the
interim, personnel shortages will continue to hamper the department’s ability to manage
its contracts and workload in an effective and efficient manner.

                                                               Modest Progress
Knowledge Management and Information
Systems
DHS made “modest” progress in deploying an enterprise acquisition information system
and tracking key acquisition data. DHS has not yet fully deployed a department-wide
(enterprise) contract management system that is interfaced with the financial system. Many
procurement offices continue to operate using legacy systems that do not interface with
financial systems. With ten procurement offices and more than $17 billion in annual
acquisitions and procurement, DHS needs a consolidated acquisition system to improve data
integrity, reporting, performance measurement, and financial accountability.

In recent years, DHS did not ensure contract data was complete and accurate in the Federal
Procurement Data System-Next Generation (FPDS-NG). 10 This system is the only
consolidated information source for analyzing competition on procurements and is relied on
for reporting to the public and Congress. DHS has taken steps to comply with May 2008
guidance, issued by the Office of the Federal Procurement Policy, that requires government
agencies to develop a plan for improving the quality of acquisition data entered into FPDS­
NG. For example, DHS developed a standard report format and data quality review plans.



INFORMATION TECHNOLOGY MANAGEMENT

Creating a unified information technology (IT) infrastructure for effective integration and
agency-wide management of IT assets and programs remains a challenge for the DHS Chief
Information Officer (CIO). The CIO’s successful management of IT across the department
will require the implementation of strong IT security controls, coordination of planning and
investment activities across DHS components, and a commitment to ensuring privacy.



9
 Department of Homeland Security FY 2008 Annual Financial Report.

10
  DHS-OIG, DHS Contracts Awarded Through Other Than Full and Open Competition during Fiscal Year 

2007, (OIG-09-94, August 2009). 



                                                                                                     6
Security of IT Infrastructure

During our FY 2008 Federal Information Security Management Act 11 (FISMA) evaluation,
we reported that the department continued to improve and strengthen its security program.
Specifically, the department implemented a performance plan to improve on four key areas:
Plan of Action and Milestones weaknesses remediation, quality of certification and
accreditation, annual testing and validation, and security program oversight. The department
also finalized its Sensitive Compartmented Information Systems Information Assurance
Handbook, which provides department intelligence personnel with security procedures and
requirements to administer its intelligence systems and the information processed.

Although the department’s efforts have resulted in some improvements, components are still
not executing all of the department’s policies, procedures, and practices. Management
oversight of the components’ implementation of the department’s policies and procedures
needs improvement in order for the department to ensure that all information security
weaknesses are tracked and remediated, and to enhance the quality of system certification
and accreditation.

Additional information security program areas that need improvement include configuration
management, incident detection and analysis, specialized training, and privacy. In 2009, we
reported 12 that DHS had implemented effective system controls to protect the information
stored and processed by the department’s unclassified network, LAN-A. DHS ensures that
network patch management and vulnerability assessments are performed periodically.
However, DHS did not have an effective process to manage its LAN-A privileged accounts
or ensure that security patches were deployed on all applications. The lack of sufficient
processes increased the risk that LAN-A security controls could be circumvented.

IT Management

The department faces significant challenges as it attempts to create a unified IT infrastructure
for effective integration and agency-wide management of IT assets and programs. Toward
that end, DHS has several initiatives underway to improve IT operations and reduce costs.
One such program is the development of an enterprise-wide IT disaster recovery program to
ensure that the department’s operations can continue uninterrupted should its IT systems fail.
We reported in April 2009 that DHS had made progress in implementing a disaster recovery
program by allocating funds to establish two new data centers. 13 However, we noted that
more work was needed to ensure the new data centers were fully capable of meeting the
department’s significant IT disaster recovery needs.

Another major IT challenge for the DHS CIO is OneNet, an initiative aimed at consolidating
existing IT infrastructures into a wide area network. DHS began work on OneNet in 2005,
and envisions it will provide the components with secure data, voice, video, tactical radio,

11
   Title III of the E-Government Act of 2002, Public Law 107-347. 

12
   DHS-OIG, Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A,

(OIG-09-55, April 2009). 

13
   DHS-OIG, DHS’ Progress In Disaster Recovery Planning for Information Systems (OIG-09-60, April 2009).



                                                                                                       7
and satellite communications between internal and external DHS resources. We reported in
September 2009 that DHS has taken various steps to consolidate existing infrastructures into
OneNet, but faces challenges in completing its OneNet implementation. 14 Specifically, we
reported that DHS is experiencing delays in meeting its scheduled completion date and that
components are reluctant to participate and are not subscribing to the implementation of
OneNet. As a result, DHS may not be able to reach its ultimate goal of consolidating and
modernizing its existing infrastructures and achieve cost savings.

Component CIOs also face significant challenges in their efforts to improve IT management,
budgeting, planning, and investment. In July 2009, we reported 15 that U.S. Citizenship and
Immigration Services (USCIS) strengthened overall IT management by restructuring its
Office of Information Technology and realigning its field IT staff. However, the
department’s efforts to enforce overall IT budget authority and improve agency-wide IT
infrastructure have been difficult, due to insufficient staffing and funding. The department
finalized its Office of the Chief Information Officer (OCIO) Staffing Plan in April 2009, in
which it has identified the need to ensure sufficient staff with the right skills, security
clearances and experience.

Our April 2008 audit of the Federal Emergency Management Agency’s (FEMA) efforts to
upgrade its disaster logistics management systems 16 showed that existing systems did not
provide complete asset visibility, comprehensive asset management, or integrated logistics
information. Since this report, FEMA has yet to finalize its logistic, strategic, and
operational plans to guide logistics activities. In addition, FEMA has not developed
processes and procedures to standardize logistics activities. Without such plans, processes,
and procedures, selection of IT systems to support logistics activities will remain difficult.

Privacy

DHS continues to face challenges in ensuring that privacy concerns are properly addressed
throughout the lifecycle of each program and information system. For example, our
September 2009 report 17 identified a need for automated privacy tools to monitor the
Transportation Security Administration’s (TSA) file servers containing personally
identifiable information. Without such tools, TSA’s OCIO manually checked for personally
identifiable information leaks on file servers. However, these manual checks did not prevent
regularly occurring classified data spills and unprotected e-mails containing personnel
information.

We also reported that TSA made progress in implementing a framework that promotes a
privacy culture and complies with federal privacy laws and regulations. Specifically, TSA
designated the Office of Privacy Policy and Compliance to oversee its privacy functions.
14
   DHS-OIG, Improved Management and Stronger Leadership are Essential to Complete the OneNet 

Implementation (OIG-09-98, September 2009).

15
   DHS-OIG, U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

(OIG-09-90, July 2009). 

16
   DHS-OIG, Logistics Information Systems Need to be Strengthened at the Federal Emergency Management 

Agency, (OIG-08-60, May 2008). 

17
   DHS-OIG, Transportation Security Administration Privacy Stewardship (OIG-09-97, August 2009). 



                                                                                                          8
This office strengthened TSA’s culture of privacy through coordination with managers of
programs and systems that contain personally identifiable information to meet reporting
requirements, performing Privacy Impact Assessments, preparing public notifications of
systems of records, and enforcing privacy rules of conduct. The office also established
processes for reviewing and reporting privacy incidents, issuing public notices, addressing
complaints and redress for individuals, and implementing and monitoring privacy training for
employees.

IT Management Scorecard

The following scorecard demonstrates where DHS’ IT management functions have been
strengthened. This high-level assessment identifies progress in six IT management capability
areas: IT budget oversight, IT strategic planning, enterprise architecture, portfolio
management, capital planning and investment control, and IT security. These six elements
were selected based on IT management capabilities required by federal and DHS guidelines
for enabling CIOs to manage IT department-wide.

Based on the consolidated result of the six IT management capability areas, DHS has made
“moderate” progress in IT Management overall.


                          IT MANAGEMENT SCORECARD
                                                                 Modest Progress
IT Budget Oversight: ensures visibility into IT
spending and alignment with the strategic IT direction.


The DHS CIO has made improvements in managing department-wide IT budgets in
accordance with the Clinger-Cohen Act 18 and the department’s mission and policy
guidance. The DHS 2009-2013 IT Strategic Plan emphases the importance of Component
IT spending approval by either the Component-level CIO or the DHS CIO. However,
gaining a department-wide view of IT spending was difficult due to some Component
CIOs not having sufficient budget control and insight. For example, our 2009 report 19 on
U.S. Citizenship and Immigration Services (USCIS) found that it was difficult for the
USCIS CIO to perform IT budgeting because business units had direct fee revenue or
appropriated funds and have not complied with IT budgetary control processes. Due to the
limited benefits realized, IT Budget Oversight has made “modest” progress.
                                                                 Moderate Progress
IT Strategic Planning: helps align the IT
organization to support mission and business priorities.



18
  Clinger-Cohen Act of 1996, Public Law 104-106, Division E, Subtitle C, February 10, 1996.
19
  DHS-OIG, U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology,
(OIG-09-90, July 2009).


                                                                                                        9
                         IT MANAGEMENT SCORECARD
An effective IT strategic plan establishes an approach to align resources and provides a
basis for articulating how the IT organization will develop and deliver capabilities to
support mission and business priorities. In January 2009, the department finalized its IT
Strategic Plan, which aligns IT goals with overall DHS strategic goals. The plan also
identifies technology strengths, weaknesses, opportunities, and threats. Due to the
finalization and communication of the DHS IT Strategic Plan and plans to align IT with the
department’s goals, this area has made “moderate” progress.
                                                                 Moderate Progress
Enterprise Architecture: functions as a blueprint
to guide IT investments for the organization.


The Clinger-Cohen Act requires that CIOs develop and implement an integrated IT
architecture for the agency to avoid the risk that systems will be duplicative, not well
integrated, and limited in optimizing mission performance. DHS has shown continued
support of its enterprise architecture program, and has requested over $100 million of
funding for fiscal year 2010. In addition, the DHS IT Strategic Plan identifies a
performance measure for the percentage of IT investments reviewed and approved through
the Enterprise Architecture Board. This should further promote and enforce alignment of
IT investments across the department. The department has shown “moderate” progress in
implementing its enterprise architecture.
                                                                  Modest Progress
Portfolio Management: improves leadership’s
ability to understand interrelationships between IT
investments and department priorities and goals.

The DHS OCIO has made “Modest” progress in establishing the department’s portfolio
management capabilities as instructed by OMB Circular A-130. 20 The DHS portfolio
management program aims to group related IT investments into defined capability areas to
support strategic goals and missions. Portfolio management improves leadership’s
visibility into relationships among IT assets and department mission and goals across
organizational boundaries.

The DHS IT Strategic Plan identifies a goal to effectively manage IT capabilities and
implement cross-departmental IT portfolios that enhance mission and business
performance. Although progress is being made, the department has not identified fully
opportunities to standardize, consolidate, and optimize the IT infrastructure. Based on the
limited benefits realized, the department has shown “modest” progress in implementing
department-wide portfolio management.



20
  Office of Management and Budget Circular A-130, Transmittal 4, Management of Federal Information
Resources, November 2000.


                                                                                                     10
                         IT MANAGEMENT SCORECARD
                                                                 Moderate Progress
Capital Planning and Investment Control:
improves the allocation of resources to benefit the
strategic needs of the department.

The Clinger-Cohen Act requires that departments and agencies create a capital planning
and investment control (CPIC) process to manage the risk and maximize the value of IT
acquisitions. The CPIC process is intended to improve the allocation of resources to
benefit the strategic needs of the department. As part of the CPIC process, agencies are
required to submit business plans for IT investments to OMB demonstrating adequate
planning.

To address this requirement, DHS’ IT Strategic Plan communicated the importance of
following the IT investment guidance provided by DHS management directive 0007.1. 21
This directive supports and expands on the Act’s requirement for technology, budget,
financial, and program management decisions. The department has made “moderate”
progress with respect to allocation of resources to benefit its strategic needs.
                                                                 Moderate Progress
IT Security: ensures protection that is commensurate
with the harm that would result from unauthorized
access to information.

DHS IT security is rated at “moderate,” for progress made during the last 3 years in
compliance with FISMA. OMB Circular A-130 requires agencies to provide protection
that is commensurate with the risk and magnitude of the harm that would result from
unauthorized access to information and systems assets or their loss, misuse, or
modification. Regarding intelligence systems, information security procedures have been
documented and controls have been implemented, providing an effective level of systems
security.


EMERGENCY MANAGEMENT

FEMA’s mission is to support citizens and first responders to ensure that as a nation we work
together to build, sustain, and improve our capability to prepare for, protect against, respond
to, recover from, and mitigate all hazards. The Post-Katrina Emergency Management
Reform Act of 2006 (Post-Katrina Reform Act), 22 enacted to address shortcomings exposed
by Hurricane Katrina, expanded the scope of the agency’s mission, enhanced FEMA’s
authority and gave it primary responsibility for the four phases of comprehensive emergency
management: preparedness, response, recovery, and mitigation.
21
  DHS Management Directive 0007.1: Information Technology Integration and Management March 2007.
22
  Public Law 109-295, Title VI – National Emergency Management, of the Department of Homeland Security
Appropriations Act of 2007.


                                                                                                    11
In March 2008, we released a report on FEMA’s progress in addressing nine key
preparedness areas related to catastrophic disasters: overall planning, coordination and
support, interoperable communications, logistics, evacuations, housing, disaster workforce,
mission assignments, and acquisition management. 23 FEMA’s progress in these areas ranged
from limited to moderate. FEMA officials said their progress was impacted by budget
shortfalls, reorganizations, inadequate IT systems, and confusing or limited authorities. We
made several recommendations for improvements in overall planning, coordination, and
communications. We plan to update this catastrophic assessment in FY 2010.

As we reported in June 2009, FEMA’s response to Hurricane Ike was well organized and
effective. Within seven weeks of landfall, FEMA registered more than 715,000 hurricane
victims, completed 359,000 housing inspections, installed manufactured housing for 339
families, and disbursed over $326 million for housing and other needs.24

While our emphasis in last year’s scorecard was catastrophic preparedness, this year’s
scorecard focuses on three key challenges FEMA faces in meeting its broader emergency
management mission.

Emergency Management

The following scorecard highlights FEMA’s progress in three key areas: disaster sourcing,
housing, and mitigation.

Based on the consolidated result of the three areas presented here, as well as progress made
in acquisition management and disaster grants management, FEMA has made “moderate”
progress in the area of Emergency Management.


                  EMERGENCY MANAGEMENT SCORECARD
                                                                  Moderate Progress
Disaster Sourcing

When disaster strikes, FEMA must be prepared to quickly provide goods and services to
help state and local governments respond to the disaster. Disaster resources, ranging
from water and meals to tarps and blankets, can be provided directly by FEMA, by
another federal agency under direction from FEMA, or by the private sector through a
contract with FEMA or another federal agency.

In reviewing FEMA’s use of its four primary sourcing mechanisms: (1) warehoused
goods; (2) mission assignments; (3) interagency agreements; and (4) contracts, we
determined that FEMA does not have a clear, overarching strategy that guides decision
making on which of these sourcing mechanisms to use to meet a particular need.
23
     DHS-OIG, FEMA’s Preparedness for the Next Catastrophic Disaster, (OIG-08-34, March 2008).
24
     DHS-OIG, Management Advisory Report: FEMA’s Response to Hurricane Ike, (OIG-09-78, June 2009).


                                                                                                      12
               EMERGENCY MANAGEMENT SCORECARD
FEMA’s disaster sourcing decisions are process driven and not compliant with the
National Incident Management System. Decision making is stove-piped within the Joint
Field Office and among various levels of FEMA. This approach does not allow FEMA to
centralize disaster sourcing decision making and limits its ability to: (1) implement an
overarching sourcing strategy; (2) minimize unnecessary duplication; (3) take advantage
of resource ordering efficiencies; and (4) create transparency and maintain visibility over
the entire resource ordering process. 25

We have also reported that some sourcing decisions are made in response to pressure
from internal and external officials and are not necessarily based on actual need or a
request from the state affected by a disaster. 26 While often well-meaning, the pressure
can result in waste when the goods or services are not needed and can be disruptive to the
sourcing process. Implementing single-point ordering and supporting it with IT systems
that provide increased visibility and transparency will allow FEMA to provide a focal
point for such input and increase the availability of information on what goods and
services have been requested, ordered, and delivered. 27

                                                               Modest Progress
Housing

While FEMA has made strides in a number of areas since hurricanes Katrina and Rita
struck the Gulf Coast, there remains room for improvement, including in the critical area
of disaster housing. 28 FEMA does not yet have sufficient tools, operational procedures,
and legislative authorities to aggressively promote the cost-effective repair of housing
stock, an important element of post-disaster housing.

The repair and restoration of existing housing stocks is one of the most important
challenges FEMA and its response and recovery partners face following a catastrophic
housing disaster. All other housing decisions and programs hinge on this single variable.

After Hurricane Katrina, Congress required FEMA to develop the National Disaster
Housing Strategy. FEMA issued the strategy in January 2009. The strategy summarizes
the sheltering and housing capabilities, principles, and policies that will guide the disaster
housing process. The strategy promotes engagement of all levels of government, along
with nonprofits, the private sector, and individuals to collectively address the housing
needs of disaster victims. The goal is to enable individuals, households, and communities

25
   DHS-OIG, FEMA’s Sourcing for Disaster Response Goods and Services, (OIG-09-96, August 2009).
26
   DHS-OIG, Management Advisory Report: FEMA's Response to Hurricane Ike, (OIG-09-78, June 2009).
27
   DHS-OIG, FEMA’s Sourcing for Disaster Response Goods and Services, (OIG-09-96, August 2009).
28
   DHS-OIG, Federal Emergency Management Agency’s Exit Strategy for Temporary Housing in the Gulf
Coast Region, (OIG-09-02, October 2008); DHS-OIG, FEMA Response to Formaldehyde in Trailers, (OIG-09­
83, June 2009); DHS-OIG, Management Advisory Report: Computer Data Match of FEMA and HUD Housing
Assistance Provided to Victims of Hurricane Katrina and Rita, (OIG-09-84, June 2009).


                                                                                                  13
                EMERGENCY MANAGEMENT SCORECARD
to rebuild and restore their way of life as soon after a disaster as possible.

The strategy is a positive step forward, but it is only an interim step. It outlines a number
of potential programs and federal agencies that can help victims find housing solutions.
However, the strategy does not describe what would be a favorable outcome or goal in a
particular disaster scenario or include action plans designed to achieve specific goals. To
be complete, FEMA’s action plan must specify what constitutes success under
increasingly severe disaster scenarios, especially catastrophic disasters.

FEMA must develop better tools and operational procedures to respond effectively to the
next disaster, especially a catastrophic disaster that destroys much housing stock. To
better manage expectations and speed housing solutions, FEMA should set achievable
housing goals and manage expectations following disasters. It is also critically important
that all disaster stakeholders at the federal, state, and local levels maintain momentum
and continue to implement needed changes over time.

FEMA needs more flexibility to explore innovative and cost-effective solutions to
disaster housing challenges. In our report, FEMA’s Sheltering and Transitional Housing
Activities After Hurricane Katrina, issued in September 2008, we encouraged FEMA to
explore alternatives to its traditional housing programs, including providing lump sum
payments to disaster victims. 29 This could be a more cost-effective and expeditious way
of returning victims to a more normal way of life.
                                                                  Modest Progress
Mitigation

Mitigation is the effort to reduce loss of life and property by lessening the impact of
disasters. In the realm of emergency management, hazard mitigation falls into three
broad categories: natural, technological and manmade. Natural hazards are those
generally associated with weather and geological events, such as hurricanes, tornadoes or
earthquakes. Technological hazards include dams, gas lines and chemical facilities.
Manmade hazards are typically associated with a criminal or terrorist attack using devices
such as an improvised explosive device, biological weapon or chemical weapon.
FEMA’s Mitigation Directorate manages the National Flood Insurance Program and a
range of programs designed to reduce future losses from natural hazards. Other DHS
components have responsibility for mitigation of technological and manmade hazards.

The Flood Insurance Reform Act of 2004 was enacted to reduce or eliminate future losses
to properties in the National Flood Insurance Program by establishing the Repetitive
Flood Claims and the Severe Repetitive Loss grant programs. Repetitive loss properties
are insured properties that have incurred two or more flood losses greater than $1,000
within any 10-year period. FEMA and its state and local partners have mitigated nearly
29
  DHS-OIG, FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina, (OIG-08-93,
September 2008).


                                                                                                        14
                  EMERGENCY MANAGEMENT SCORECARD
15,000 repetitive loss properties since 1978, but an average of 5,188 new repetitive loss
properties have been added each year, outpacing FEMA mitigation efforts by a factor of
10 to 1. 30

Many of the conditions we reported in 2009 regarding the challenges of mitigating
repetitive loss properties are the same as those we reported in 2002: (1) FEMA can only
promote the notion of mitigation and cannot directly compel property owners in flood
hazard areas to mitigate; (2) mitigation professionals need access to accurate information
about repetitive loss properties to better manage the repetitive flood loss problem; and,
(3) the need to impose actuarial rates on repetitive loss properties is vital to the financial
independence of the National Flood Insurance Program. To address these challenges, we
have recommended that FEMA apply actuarial insurance rates to properties on leased
federal land and implement regulations to expand the use of increased cost of compliance
coverage for all qualifying FEMA mitigation programs.

FEMA regulations regarding the implementation of public assistance and mitigation
projects located in Coastal Velocity Zones (V Zones) are derived from Executive Order
11988, which requires federal agencies and responsible entities to avoid direct or indirect
support to floodplain development wherever there is a practicable alternative. However,
FEMA in practice directly supports community development in V Zones by funding
recovery projects and providing insurance under the National Flood Insurance Program to
properties located in V Zones. This is a significant management challenge for FEMA
because it must find a balance between meeting the needs of coastal communities while
not inadvertently encouraging settlement in floodplains and hazardous coastal areas. As
a result of our review and subsequent recommendations concerning FEMA’s recovery
assistance and mitigation projects located in Louisiana coastal areas, FEMA is evaluating
its policies relating to the application of recovery assistance, insurance, and mitigation
projects located in V Zones. 31


GRANTS MANAGEMENT
FEMA provides disaster assistance to communities through the Public Assistance Grant
Program, the Hazard Mitigation Grant Program, and the Fire Management Assistance Grant
Program. Under each of these grant programs, the affected State is the grantee, and the State
disburses funds to eligible subgrantees. FEMA also awards grants to state and local
governments; territories; tribal governments; and private, public, profit, and nonprofit
organizations to enhance preparedness, protection, response, recovery, and mitigation
capabilities throughout the Nation. However, improvements are needed in FEMA’s grants
management and oversight infrastructure to ensure effective monitoring of grantees.



30
     DHS-OIG, FEMA’s Implementation of the Flood Insurance Reform Act of 2004, (OIG-09-45, March 2009).
31
     DHS-OIG, FEMA Policy Relating to Coastal Velocity Zones, (OIG-09-71, May 2009).


                                                                                                      15
Given the billions of dollars appropriated annually for preparedness, disaster, and non-
disaster grant programs, DHS needs to ensure that internal controls are in place and adhered
to, and that grant recipients are sufficiently monitored to achieve successful outcomes. DHS
should continue refining its risk-based approach to awarding preparedness grants to ensure
that the most vulnerable areas and assets are as secure as possible. Sound risk management
principles and methodologies will help DHS prepare for, respond to, recover from, and
mitigate acts of terrorism and natural disasters.

Grants Management

The following scorecard highlights the department’s progress in two key areas: disaster and
non-disaster grants management. FEMA is taking steps to improve its grant policies,
procedures, systems, and processes which when developed and implemented should
strengthen its grants management and oversight infrastructure.

Based on the consolidated result of the two areas presented here, FEMA has made “modest”
progress in the area of Grants Management.



                  GRANTS MANAGEMENT SCORECARD
                                                             Moderate Progress
Disaster Grants Management

In FY 2008, we issued 25 financial assistance (subgrant) audit reports, identifying more
than $23 million in questioned costs. As of August 2009, we had issued 41 subgrant
audit reports in FY 2009, with more than $80 million in questioned costs.

While FEMA does not directly manage subgrants, it is incumbent on FEMA to make
certain that States, as grantees, understand the rules and regulations that govern disaster
grants and ensure that subgrantees adhere to these. We plan to issue a report in early
FY 2010 that presents some of the most common problems that lead to questioned costs,
including inconsistent interpretation of policies by FEMA personnel and, in the case of
fire assistance, problems with unsupported charges billed to subgrantees by other federal
agencies that provided services.

                                                             Modest Progress
Non - Disaster Grants Management

Monitoring and documenting the effectiveness of DHS’ multitude of grant programs
continue to pose significant challenges for the department. DHS manages more than
80 disaster and non-disaster grant programs. This challenge is compounded by other
federal agencies’ grant programs that assist state and local governments in improving
their abilities to prepare for, respond to, and recover from acts of terrorism or natural


                                                                                              16
                 GRANTS MANAGEMENT SCORECARD
disasters.

Improvements are needed in FEMA’s grants management and oversight infrastructure to
ensure effective monitoring of grantees. Specifically, FEMA does not consistently and
comprehensively execute its two major oversight activities, financial and program
monitoring. This occurs, in part, because FEMA does not have sufficient grants
management staff. FEMA has not conducted the analyses and developed the plan of
action required by Public Law 109-295 Title VI, the Post Katrina Emergency
Management Reform Act of 2006 as part of its strategic human capital plan. In addition,
financial and programmatic monitoring policies, procedures, and plans are not
comprehensive.

FEMA has formed an Intra-Agency Grants Program Task Force that has developed a
FEMA Grants Strategy to drive future enhancements in grants policies, procedures,
systems, and processes. The task force has identified projects including the development
of comprehensive grant management monitoring policies and procedures for the FEMA
directorates with program management and oversight responsibilities.

Many states, as grantees, are not sufficiently monitoring subgrantee compliance with
grant terms and cannot clearly document critical improvements in preparedness as a
result of grant awards. During FY 2009, we issued audit reports on homeland security
grants management by Illinois and California. We are currently reviewing
Massachusetts, Maryland, Missouri, South Carolina, West Virginia, and the District of
Columbia. These entities generally did an efficient and effective job of administering the
grant funds; however, the most prevalent areas needing improvement concerned
performance measurement, subgrantee monitoring, financial documentation and
reporting, and control of expenditure reimbursement requests.



FINANCIAL MANAGEMENT
DHS continued to improve financial management in FY 2009, but challenges remain.
Beginning in FY 2009, our independent auditors performed an integrated financial statement
and internal control over financial reporting audit limited to the DHS consolidated balance
sheet and statement of custodial activity. As in previous years, our independent auditors
were unable to provide an opinion on those statements because the department could not
provide sufficient evidence to support its financial statements or represent that financial
statement balances were correct. Additionally, the independent auditors were unable to
perform procedures necessary to form an opinion on DHS’ internal control over financial
reporting of the balance sheet and statement of custodial activity due to the pervasiveness of
the department’s material weaknesses.




                                                                                             17
Although the department has continued to remediate material weaknesses and has reduced
the number of conditions contributing to the disclaimer of opinion on the financial
statements, all six material weakness conditions were repeated in FY 2009. Furthermore, the
increase in audit scope related to auditing internal control over financial reporting resulted in
our independent auditor identifying significant departmental challenges that have a pervasive
impact on the effectiveness of internal controls over consolidated financial reporting.
Specifically:

   •	 The department lacks a sufficient number of accounting and financial management
      personnel with core technical competencies to ensure that its financial statements are
      presented accurately and in compliance with generally accepted accounting principals
   •	 DHS’ accounting and financial reporting infrastructure, including policies,
       procedures, processes, and internal controls, have not received investments in
       proportion to the department’s rapid growth in new programs and operations, and
       changes in mission since the department’s inception;

   •	 Field and operational personnel do not always share responsibilities for, or are not
       held accountable for, matters that affect financial management, including adhering to
       accounting policies and procedures and performing key internal control functions in
       support of financial reporting;
   •	 The department’s financial Information Technology (IT) system infrastructure is
      aging and has limited functionality, which is hindering the Department’s ability to
      implement efficient corrective actions and produce reliable financial statements that
      can be audited.

IT controls and systems functionality conditions at FEMA and ICE deteriorated in FY 2009.
The remaining significant component level challenges preventing the department from
obtaining an opinion on its consolidated balance sheet and statement of custodial activity are
primarily at the Coast Guard and TSA. In both FY 2009 and FY 2008, Coast Guard was
unable to assert to any of its account balances; and TSA was unable to fully support the
accuracy and completeness of the property, plant, and equipment (PP&E) account balance.
However, the Coast Guard has made limited progress implementing the Financial Strategy
for Transformation and Audit Readiness (FSTAR) in FY 2009. As a result, the auditors
have been able to perform limited audit procedures over PP&E and actuarial liabilities.
Additionally, the FSTAR calls for substantially more progress after FY 2010, especially in
areas necessary to assert to the completeness, existence, and accuracy of PP&E, actuarial
liabilities, and fund balance with Treasury balances.

Financial Management Scorecard

The following scorecard presents the status of DHS’ effort to address internal control
weaknesses in financial reporting that were identified in FY 2008. The scorecard is divided
into two categories: (1) Military – Coast Guard and (2) Civilian – all other DHS
components. The scorecard lists the six material weaknesses identified during the
independent audit of the FY 2008 DHS consolidated balance sheet and statement of custodial
activity. These weaknesses continued to exist throughout FY 2009 and were again noted in

                                                                                              18
the FY 2009 independent auditor’s report. For a complete description of the internal control
weaknesses identified in the FY 2008 audit, see OIG-09-09. 32 To determine the status, we
compared the material weaknesses reported by the independent auditor in FY 2008 with
those identified in FY 2009. 33 The scorecard does not include other financial reporting
control deficiencies identified in FY 2009 that do not rise to the level of a material weakness,
as defined by the American Institute of Certified Public Accountants.

The ratings are based on a four-tiered scale ranging from limited to substantial progress as
follows:

     •	 Limited: While there may be plans to address internal control weaknesses, few if
        any have been remediated;
     •	 Modest: While some improvements have been made and account balances have been
        corrected, many systemic internal control weaknesses remain;
     •	 Moderate: Many of the internal control weaknesses have been remediated; and
     •	 Substantial: Most or all of the internal control weaknesses have been remediated.

Based on the consolidated result of the seven financial management areas included in the
report, DHS has made “modest” progress overall in financial management.



                  FINANCIAL MANAGEMENT SCORECARD

Financial Reporting and Management: Financial reporting is the process of
presenting financial data about an agency’s financial position, the agency’s operating
performance, and its flow of funds for an accounting period. Financial management is the
planning, directing, monitoring, organizing, and controlling of financial resources,
including program analysis and evaluation, budget formulation, execution, accounting,
reporting, internal controls, financial systems, grant oversight, bank cards, travel policy,
appropriation-related Congressional issues and reporting, working capital funds, and other
related functions.


       Military                Limited Progress

                    The Coast Guard has demonstrated limited progress in remediating the
                    numerous internal control weaknesses identified by the independent
                    auditors during FY 2008. Significant control deficiencies contributing to
                    a material weakness in financial reporting in FY 2008 included: 1) lack
                    of an effective general ledger system; and 2) lack of effective policies,
                    procedures, and controls surrounding the financial reporting process. In

32
   DHS-OIG, Independent Auditors' Report on DHS' FY 2008 Financial Statements, (OIG-09-09, November 

2008).

33
   DHS-OIG, Independent Auditors' Report on DHS' FY 2009 Financial Statements and Internal Control Over 

Financial Reporting, (OIG-10-11, November 2009).



                                                                                                      19
           FINANCIAL MANAGEMENT SCORECARD
           FY 2008 the Coast Guard revised its FSTAR; however, most of the
           actions outlined in the FSTAR were scheduled to occur after FY 2008.

           During FY 2009, the independent auditors noted that the Coast Guard
           continued implementation of its FSTAR and made some progress by
           completing its planned corrective actions over pension liabilities. This
           allowed management to make assertions on completeness and accuracy
           on its accrued liabilities, which represents more than 50 percent of the
           department’s total liabilities. However, most corrective actions outlined
           in the FSTAR are scheduled to occur after FY 2009, and consequently
           many of the financial reporting weaknesses reported in prior years
           remained as of the end of FY 09.

           Among the conditions at Coast Guard that contribute to a material
           weakness in this area during FY 2009 is the lack of sufficient financial
           management personnel to identify and address control weaknesses, and
           develop and implement effective policies, procedures, and internal
           controls over financial reporting process.


Civilian             Limited Progress


           FY 2008, the independent auditors found several internal control
           weaknesses in financial reporting at FEMA and TSA. Those conditions
           contributed to qualifications of the auditors’ opinion on the department’s
           consolidated financial statements.

           Overall, the department has made limited progress in FY 2009 in
           addressing the internal controls weakness the auditor identified in this
           financial reporting in FY 2008. FEMA and TSA, which both contributed
           to a material weakness in this area in FY 2008, have shown only minimal
           progress in improving the internal control weaknesses. Conditions at
           CBP have deteriorated in FY 2009, although less severe than at FEMA
           and TSA. These internal control deficiencies at CBP, FEMA, and TSA
           have contributed to a material weakness in this area for the department
           overall in FY 2009.

           Among the deficiencies noted in the FY 2009 independent auditor’s
           report is that the department lacks a sufficient number of accounting and
           financial management personnel with core technical competencies to
           ensure its financial statements are prepared accurately and in compliance
           with generally accepted accounting principles. This condition was
           common among CBP, FEMA, and TSA in FY 2009.


                                                                                        20
                 FINANCIAL MANAGEMENT SCORECARD

Information Technology Controls and Financial Systems Functionality:
IT general and application controls are essential for achieving effective and reliable
reporting of financial and performance data.

      Military              Limited Progress

                  During 2008, the independent auditors identified numerous IT general
                  control deficiencies, of which nearly all were repeat findings from prior
                  years. The most significant IT deficiencies that could affect the
                  reliability of the financials statements related to the development,
                  implementation, and tracking of scripts, and the design and
                  implementation of configuration management policies and procedures.
                  These deficiencies at the Coast Guard contributed to a material weakness
                  for the department in this area in FY 2008.

                  For FY 2009, the Coast Guard has demonstrated limited progress in
                  correcting certain IT general control weaknesses identified in previous
                  years. As a result of the increase in scope of IT testing in FY 2009, the
                  auditors have identified additional weaknesses that were not reported in
                  the prior year. Therefore, although the Coast Guard corrected some
                  deficiencies in IT general controls, the number of IT control weaknesses
                  increased over the prior year. Over 50 percent of the findings the
                  auditors identified in FY 2009 were repeat conditions from the prior
                  year.

                  One key area that remains a challenge for the Coast Guard is its core
                  financial system configuration management process. For 2009, the
                  auditors again noted that the configuration management process is not
                  operating effectively. Financial data in the general ledger may be
                  compromised by automated and manual changes that are not properly
                  controlled. The changes are implemented through the use of IT script
                  process, which was instituted as a solution to address functionality and
                  data quality issues. However, the controls over the script process were
                  not properly designed or implemented effectively from the beginning.


      Civilian              Limited Progress

                  Overall, DHS has made limited progress in correcting the IT general and
                  applications control weaknesses identified in the FY 2008 independent
                  auditor’s report. During FY 2008, FEMA and TSA contributed to an
                  overall material weakness in IT general and applications control, while
                  CBP, FLETC, and USCIS all had significant deficiencies in this area.


                                                                                              21
                FINANCIAL MANAGEMENT SCORECARD
                 As a result of the increase in scope of the IT testing in FY 2009, the
                 auditors have identified additional weaknesses that were not reported in
                 the prior year. Therefore, although the DHS civilian components
                 corrected some deficiencies in IT general controls, which resulted in the
                 closure of more than 60 percent of the IT general controls findings
                 reported in FY 2008, the number of department-wide IT control
                 weaknesses increased over the prior year, with conditions at FEMA and
                 ICE deteriorating.

                 The auditors noted that many of the financial systems in use at DHS
                 components have been inherited from the legacy agencies and have not
                 been substantially updated since DHS’ inception. As a result, ongoing
                 financial system functionality limitations are contributing to the
                 department’s challenges in addressing systemic internal control
                 weaknesses and strengthening the overall control environment.

                 The FY 2009 independent auditor’s report identified the following areas
                 that continue to present risks to the confidentiality, integrity, and
                 availability of DHS’ financial data: 1) excessive access to key DHS
                 financial applications, 2) application change control processes that are
                 inappropriate, not fully defined or followed, and are ineffective, and 3)
                 security management practices that do not fully and effectively ensure
                 that financial systems are certified, accredited, and authorized to
                 operation prior to implementation.


Fund Balance with Treasury (FBwT): FBwT represents accounts held at
Treasury from which an agency can make disbursements to pay for its operations. Regular
reconciliation of an agency’s FBwT records with Treasury is essential to monitoring and
safeguarding these funds, improving the integrity of various U.S. Government financial
reports, and providing a more accurate measurement of budget resources.


     Military              Limited Progress

                 The Coast Guard has demonstrated limited progress in addressing the
                 material weaknesses noted in this area in previous years. In FY 2008, the
                 independent auditors reported a material weakness in internal control
                 over FBwT at the Coast Guard. During FY 2009, the Coast Guard
                 corrected some of the control deficiencies related to this area and revised
                 its remediation plan (FSTAR) to include additional corrective actions,
                 which are scheduled to occur after FY 2009. Consequently, most of the
                 conditions which existed in FY 2008 continued to exist throughout FY
                 2009. For example, the auditors reported that the Coast Guard has not


                                                                                             22
                 FINANCIAL MANAGEMENT SCORECARD
                  developed a comprehensive process, to include effective internal
                  controls, to ensure that all FBwT transactions are recorded in the general
                  ledger timely, completely, and accurately.


      Civilian                     N/A

                  No control deficiencies related to FBwT were identified at the civilian
                  components in FY 2009. Corrective actions implemented in previous
                  years continued to be effective throughout FY 2008 and FY 2009.
Property, Plant, and Equipment (PP&E) and Operating Materials and
Supplies (OM&S): DHS capital assets and supplies consist of items such as property,
plant, and equipment, operating materials; and supplies, including boats and vessels at the
Coast Guard, passenger and baggage screening equipment at TSA, and stockpiles of
inventory to be used for disaster relief at FEMA.


      Military              Limited Progress

                  The Coast Guard maintains approximately 52 percent of the department’s
                  property, plant, and equipment (PP&E), including a large fleet of boats
                  and vessels. In FY 2008, internal control weaknesses related to PP&E at
                  Coast Guard contributed to a material weaknesses in this area for the
                  department.

                  For FY 2009, the Coast Guard has demonstrated limited progress overall
                  in correcting internal control weaknesses related to PP&E identified in
                  the independent auditor’s report in FY 2008.

                  During FY 2009, the Coast Guard continued implementation of its
                  remediation plan (FSTAR) to address the PP&E process and control
                  deficiencies, and began remediation efforts. However, the corrective
                  actions included in the FSTAR are scheduled to occur over a number of
                  years. Consequently, most of the material weakness conditions reported
                  in FY 2008 remained throughout FY 2009. For example, one of the
                  conditions the auditors identified, which is a repeat from prior years, is
                  that the Coast Guard has not established its beginning PP&E balance
                  necessary to prepare the year-end balance sheet.

                  The auditors also identified weaknesses related to operating materials
                  and supplies (OM&S), which the Coast Guard maintains in significant
                  quantities. These consist of tangible personal property to be consumed in
                  normal operation to service marine equipment, aircraft, and other
                  equipment. The auditors reported that the Coast Guard has not

                                                                                               23
                 FINANCIAL MANAGEMENT SCORECARD
                  implemented policies, procedures, and internal controls to support
                  financial assertions related to OM&S and related balances for FY 2009.



      Civilian               Modest Progress

                  DHS has demonstrated modest progress overall in correcting internal
                  control weaknesses related to capital assets and supplies identified in the
                  independent auditor’s report in FY 2008. In FY 2008, FEMA, TSA, and
                  CBP contributed to a material weakness in capital assets and supplies.
                  The conditions that existed at TSA and FEMA prevented the auditors
                  from completing their test work in FY 2008 and led to qualifications in
                  the auditors’ report.

                  While FEMA has fully remediated its internal control weakness in this
                  area during FY 2009, internal control conditions have deteriorated at
                  CBP, USCIS, ICE, and NPPD. Although conditions at USCIS, ICE, and
                  NPPD appear less severe that at CBP and TSA, when taken together,
                  they contribute to an overall material weakness for the department in this
                  area for FY 2009.

                  Most of the control weakness conditions in this area are related to PP&E.
                  Common among the components that contributed to the material
                  weakness is the lack of adequate accounting policies, procedures,
                  processes, and controls to properly account for its PP&E.


Actuarial and Other Liabilities: Liabilities represent the probable and measurable
future outflow or other sacrifice of resources as a result of past transactions or events. The
internal control weaknesses reported in this area are related to various types of liabilities,
including accounts and grants payable, legal and actuarial, and environmental liabilities.


      Military               Limited Progress

                  The Coast Guard maintains medical and post-employment travel benefit
                  programs that require actuarial computations to record related liabilities
                  for financial reporting purposes. Other liabilities include accounts
                  payable, environmental, and legal liabilities.

                  The Coast Guard was able to make financial statement assertions and
                  present auditable balances in actuarial pension liabilities, demonstrating
                  limited progress toward remediation of the control and reporting


                                                                                                 24
                 FINANCIAL MANAGEMENT SCORECARD
                  deficiencies that existed in this process in FY 2008. Among the
                  conditions that remained throughout FY 2009 is that the Coast Guard has
                  not implemented effective policies, procedures, and controls to ensure
                  the completeness and accuracy of medical cost data and post-
                  employment travel claims provided to, and used by, the actuary for the
                  calculation of the medical and post-employment benefit liabilities.


      Civilian             Moderate Progress

                  During FY 2009, the civilian components demonstrated moderate
                  progress overall in remediating internal control weaknesses related to
                  actuarial and other liabilities. Significant internal control weaknesses
                  which the independent auditors identified at FLETC, ICE, and S&T in
                  FY 2008, and which contributed to a material weakness overall for the
                  department, were fully remediated in FY 2009. However internal control
                  deficiencies continue to exist at FEMA and new weaknesses were
                  identified at TSA during FY 2009. These conditions at FEMA and TSA,
                  together with the material weakness conditions at the Coast Guard,
                  resulted in a material weakness for the department overall, in FY 2009.

                  FEMA is recognized as the primary grant-making component of DHS,
                  and the FY 2009 independent auditor’s report noted that FEMA does not
                  have sufficient policies and procedures in place to fully comply with the
                  Single Audit Act Amendments of 1996 and OMB Circular No. A-133,
                  Audits of States, Local Governments, and Non-profit Organizations.
                  TSA has numerous types of accounts payable and accrued liabilities that
                  affect the balance sheet, including Other Transactions Agreements
                  (OTA). One of the conditions at TSA that contributed to the
                  department’s material weakness is that TSA has not developed policies
                  and procedures to accurately estimate OTA accrued liability at year-end.

Budgetary Accounting: Budgetary accounts are a category of general ledger
accounts where transactions related to the receipt, obligation, and disbursement of
appropriations and other authorities to obligate and spend agency resources are recorded.


      Military              Limited Progress

                  The Coast Guard has made limited progress in this area. Many of the
                  internal control weaknesses that contributed to a material weakness in
                  budgetary accounting at the Coast Guard in FY 2008 remained
                  throughout FY 2009. For example, the FY 2008 Independent Auditors’
                  Report noted that the policies, procedures, and internal controls over the


                                                                                               25
                 FINANCIAL MANAGEMENT SCORECARD
                  Coast Guard’s process for validation and verification of some account
                  balances are not effective to ensure that recorded amounts are complete,
                  valid, accurate, and that proper approvals and supporting documentation
                  is maintained. This weakness continues to exist in FY 2009, and
                  remediation of these conditions is not planned for the Coast Guard until
                  after FY 2009.


      Civilian              Modest Progress

                  During FY 2008, internal control weaknesses at CBP and FEMA
                  contributed to a departmental material weakness in this area; the material
                  weakness continued to exist throughout FY 2009.

                  For FY 2009, the department made modest progress in correcting the
                  deficiencies that were reported in FY 2008. Although CBP implemented
                  policies and procedures related to deobligation of funds when contracts
                  have expired or been completed, management has not been effective in
                  adhering to these policies or monitoring compliance. CBP has not made
                  substantial progress in correcting the deficiencies that were reported in
                  FY 2008. Additionally, although FEMA improved its processes and
                  internal control over the mission assignment obligation and monitoring
                  process, some control deficiencies remain.


INFRASTRUCTURE PROTECTION
DHS has direct responsibility for leading, integrating, and coordinating efforts to protect 11
critical infrastructure and key resources (CI/KR) sectors: the chemical industry; commercial
facilities; critical manufacturing; dams; emergency services; commercial nuclear reactors,
materials, and waste; information technology; telecommunications; postal and shipping;
transportation systems; and government facilities. In addition, DHS has an oversight role in
coordinating the protection of seven sectors for which other federal agencies have primary
responsibility. The seven sectors for which DHS has an oversight role are agriculture and
food; the defense industrial base; energy; public health and healthcare; national monuments
and icons; banking and finance; and water and water treatment systems. The requirement to
rely on federal partners and the private sector to deter threats, mitigate vulnerabilities, or
minimize incident consequences complicates protection efforts for all CI/KR. Combined
with the uncertainty of the terrorist threat and other manmade or natural disasters, the
implementation of protection efforts is a great challenge.

In our FY 2009 report, Efforts to Identify Critical Infrastructure Assets and Systems, OIG-09­
86, we reported that the National Protection and Programs Directorate (NPPD) is in the
process of acquiring the Infrastructure Information Collection System, a replacement for the


                                                                                               26
National Asset Database. 34 It is envisioned that the Infrastructure Information Collection
System will greatly reduce critical infrastructure risk management gaps by providing
dynamic information collection systems that include a range of relevant sources. In addition,
the Infrastructure Information Collection System will allow relevant critical infrastructure
partners from federal, state, local, and private entities to access various tools that house
infrastructure data. Until this system is fully implemented, decision making regarding CI/KR
will continue to be a significant challenge.

Concerning DHS’s efforts to protect the cyber infrastructure, we reported in August 2009
that the National Cyber Security Division (NCSD) had implemented its Control Systems
Security Program (CSSP) to coordinate the cybersecurity efforts for control systems between
the public and private sectors.35 We reported that while NCSD has made progress in
implementing a cybersecurity program for control systems, opportunities exist for
improvements to its CSSP. For example, NCSD needs to encourage more information
sharing of critical infrastructures needs, threats, and vulnerabilities between the public and
private sectors. NCSD also needs to increase the number of cybersecurity vulnerability
assessments performed in order to reduce the overall risk to current operational control
systems.

Also in FY 2009, we will evaluate how DHS coordinates its infrastructure protection efforts
with other federal agencies, state and local governments and industry partners by reviewing
the protection of petroleum and natural gas infrastructure within the energy sector. This
review will determine (1) to what extent Protective Security Advisors (PSAs) are aligned to
support the NPPD’s primary national preparedness mission and the department’s overall
critical infrastructure protection strategy; (2) whether adequate guidance and resources have
been provided to support the PSA program’s growth; (3) the methods that PSAs use in
coordinating efforts to identify, prioritize, and assess critical infrastructure and key resources
within the Petroleum and Natural Gas subsectors; (4) how petroleum and natural gas
stakeholders use the work that is done by PSAs; and (5) the metrics that the PSA Program
uses to assess its own performance.


BORDER SECURITY
A principle DHS challenge is to secure the borders against all threats, including minimizing
illegal entry of persons into the U.S. To achieve this goal the U.S. Customs and Border
Protection (CBP’s) security mission is to obtain operational control of the border. In this
effort, CBP is implementing the Secure Border Initiative (SBI), a comprehensive multi-year
approach to controlling the border including immigration enforcement within the United
States.

SBInet is the program component of the SBI which will integrate personnel, infrastructure,
technologies, and rapid response capability into a comprehensive border protection system.
SBInet is intended to give our frontline officers the best possible environment to effectively
34
     DHS-OIG, Efforts to Identify Critical Infrastructure Assets and Systems, (OIG-09-86, June 2009).
35
     DHS-OIG, Challenges Remain in DHS’ Efforts to Secure Control Systems (OIG-09-95, August 2009).


                                                                                                        27
detect, identify and classify, respond to, and resolve situations that compromise border
security.

CBP faces challenges implementing SBI and SBInet. CBP has not established adequate
controls and effective oversight of contract workers responsible for providing SBI program
support services. Although CBP has recently taken steps to improve SBI program
management by hiring knowledgeable and experienced program managers, it continues to
rely heavily on contract personnel, who comprise more than 50% of the SBI workforce.
Also, CBP has not provided an adequate number of contracting officer’s technical
representatives to oversee support services contractors’ performance resulting in contractors
performing functions that should be performed by government workers. 36 We are evaluating
controls to ensure effective oversight of the prime contractor’s performance in meeting small
business goals and SBInet program costs and schedule.

Border Patrol assessments could better document and define operational requirements for
tactical infrastructure to ensure that border fence construction is linked to resource decisions
and mission performance goals. Furthermore, CPB did not complete 56 (77%) of the 73 rapid
response Border Patrol facilities projects it planned to complete in 2008 to support its border
security mission. These projects include new facilities, modifications to existing facilities,
and temporary solutions to accommodate new agents and shifting agent deployments. CBP
also has not replaced Border Patrol vehicles at the required 20% annual rate and does not
have a centralized information system to monitor vehicle availability. CBP initiated several
actions to improve its design guide, develop a new project management tracking system, and
update the space planning and cost estimation tool. In addition, CBP has taken actions to
improve its overall management of vehicles. 37

In addition, DHS needs to focus on improving the policies, processes, and procedures that
govern the management and care of its detainee population. Prior reviews of ICE’s detention
and removal operations identified deficiencies in the oversight of immigration detention
facilities. ICE has made efforts to strengthen the oversight of ICE detention assets by
establishing a Detention Facilities Inspection Group (DFIG). The DFIG provides ICE with an
independent inspection arm dedicated to oversight of ICE’s Detention and Removal Operations
(DRO) program. Additionally, ICE has contracted with private companies to provide on-site
compliance verification of the Performance-Based National Detention Standards at all ICE
detention facilities. However, we recently reported that ICE could further improve
documenting the transfer of immigrant detainees and ensuring they received timely medial
screenings and physical examinations, required by detention standards.38 Additionally, ICE




36
   DHS-OIG, Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs,

(OIG-09-80, June 2009); and DHS-OIG, Progress in Addressing Secure Border Initiative Operational

Requirements and Constructing the Southwest Border Fence, (OIG-09-56, April 2009).

37
   DHS-OIG, CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles, (OIG-09-91, July 

2009).

38
   DHS-OIG, Immigration and Customs Enforcement's Tracking and Transfers of Detainees, (OIG-09-41, 

March 2009). 



                                                                                                         28
needs to determine whether its approach to managing the detention facility bed space is cost­
effective. 39


TRANSPORTATION SECURITY
The nation’s transportation system is vast and complex, consisting of about 3.9 million miles
of roads, over 100,000 miles of rail, almost 600,000 bridges, over 300 sea ports, over 2
million miles of pipeline, about 500 train stations, and over 5,000 public-use airports. The
size of the transportation system, which moves millions of passengers and tons of freight
every day, makes it both an attractive target for terrorists and difficult to secure. The nation’s
economy depends upon implementation of effective, yet efficient transportation security
measures. The Transportation Security Administration (TSA) is responsible for protecting
the transportation system and ensuring the freedom of movement for people and commerce.
Given the “open” environment, effective security strategies must be established, while
maintaining quick and easy access for passengers and cargo. Since its inception, TSA has
faced challenges with strengthening security for aviation, mass transit and other modes of
transportation. TSA has made progress in addressing these challenges; however more needs to
be done.

Checkpoint and Checked Baggage

The Aviation and Transportation Security Act 40 requires TSA to prescribe requirements for
screening or inspecting all passengers, goods, and property before entry into the sterile areas
of an airport. Our undercover audit of checked baggage screener performance revealed that
improvements are needed in the screening process to ensure that dangerous prohibited items
that enter the checked baggage system are not cleared for loading onto a passenger aircraft. 41
We recently issued a classified report on our unannounced, covert testing using fake law
enforcement badges and credentials at selected domestic airports. 42 We tested equipment
and techniques at the screening checkpoint to assess how well TSA is addressing the related
challenges. We released a report on TSA’s controls over screener uniforms, badges, and
identification cards 43 and determined that TSA does not have adequate controls in place to
manage and account for airport security identification display area badges, TSA uniforms,
and TSA identification cards. Unauthorized individuals’ access to those items increases an
airport’s level of risk to a wide variety of terrorist and criminal acts.




39
   DHS-OIG, Immigration and Customs Enforcement Detention Bedspace Management, (OIG-09-52, April 

2009).

40
   Public Law 107-71, November 19, 2001. 

41
   DHS-OIG, Audit of the Effectiveness of the Checked Baggage Screening System and Procedures Used to 

Identify and Resolve Threats, (OIG-09-42, March 2009). 

42
   DHS-OIG, Penetration Testing of Law Enforcement Credentials Used to Bypass Screening, (OIG-09-99, 

September 2009 – Classified “Secret”.) 

43
   DHS-OIG, TSA’s Controls over SIDA Badges, Uniforms, and Identification Cards, (OIG-08-92, September 

2008).



                                                                                                      29
Passenger Air Cargo Security

Approximately 7,500 tons of cargo are carried on passenger planes each day. Federal
regulations (49 CFR) require that, with limited exceptions, passenger aircraft may only
transport cargo originating from a shipper that is verifiably “known” either to the aircraft
operator or to the indirect air carrier that has tendered the cargo to the aircraft operator. Our
audit determined that the criteria and guidance for evaluating a known shipper are unclear
and subject to interpretation, increasing the risk that shippers may be improperly classified as
known. 44 TSA’s inspection and testing activities do not provide adequate assurance that
regulated entities are complying with the program’s requirements. Our report contained six
recommendations to strengthen the controls and oversight of the program, including
providing better criteria and guidance and improving inspection and testing activities. TSA
generally concurred with all six recommendations in our report.

Rail and Mass Transit

Recent events on the rail and transit systems in Washington DC, including a derailment, fire,
and crash, have raised questions regarding the mass transit agencies’ contingency plans and
the ability to handle these basic issues, as well as major emergencies. The Aviation and
Transportation Security Act assigned TSA the responsibility to secure all modes of
transportation in the United States. During emergencies, transit agencies rely on well-
designed and regularly practiced drills and exercises to respond and recover rapidly. TSA
created the Surface Transportation Security Inspection Program in 2005 to provide oversight
and assistance to surface transportation modes. Surface Transportation Security Inspectors
act as assessors, advisors, and liaisons, primarily in the mass transit and freight rail modes.

In our FY 2009 report, Effectiveness of TSA’s Surface Transportation Security Inspectors,
OIG-09-24, we reported that TSA is improving security in the mass transit and freight rail
modes through the inspection program. Inspectors help bus and passenger rail stakeholders
identify security gaps through Baseline Assessment for Security Enhancement reviews. They
increase TSA’s domain awareness by producing station profiles and by acting as liaisons
between the Transportation Security Operations Center and transportation systems. They
also participate in Visible Intermodal Prevention and Response exercises, which provide an
unannounced, high-visibility presence in a mass transit or passenger rail environment. TSA
faces important challenges in improving the effectiveness of the Surface Transportation
Security Inspectors.

As TSA expands its presence in non-aviation modes, it must look critically at how it is
deploying resources. TSA must continue to assess how planned exercises can better use the
inspectors and their activities.




44
     DHS-OIG, TSA’s Known Shipper Program, (OIG-09-35, March 2009).


                                                                                              30
TRADE OPERATIONS AND SECURITY

CBP is primarily responsible for trade operations and security, with the support of the Coast
Guard and ICE. In 2008, approximately 11 million oceangoing cargo containers arrived at
the nation’s seaports. CBP typically processes more than 70,000 truck, rail, and sea
containers per day, along with the personnel associated with moving this cargo across U.S.
borders or to U.S. seaports. Modernizing trade systems, using resources efficiently, and
managing and forging partnerships with foreign trade and customs organizations pose
significant challenges for CBP and DHS.
To manage the threat and ensure the security of this large volume of maritime cargo, CBP
employs a multilayered approach including analyzing screening shipment information, and
using targeting systems to identify the highest risk cargo on which to focus its limited
resources. An effective inspection process includes the screening of shipping information,
nonintrusive inspections, and physical examinations. The Automated Targeting System
(ATS), which uses a complex model of weighted rules, assists CBP officers in screening
shipping information and selecting shipments for inspection.

While targeting high risk shipments continues to be challenge for CBP, it can improve its
operations by updating its guidance relating to the physical examinations of high-risk cargo
containers that may contain biological, chemical, nuclear, and radiological threats. In
addition, CBP should conduct a risk assessment to determine which pathways, including
maritime cargo, pose the highest risk of biological and chemical weapons entering the
Nation. 45

We also reviewed DHS’ planning, management oversight, and implementation of security
measures to protect against small vessel threats. 46 Overall, the department has made progress
in the area of small vessel security, but more remains to be done to provide effective
guidance and programs to address small vessel threats and the potential impact these threats
could have on our nation’s ports and trade operations. DHS should address all the desirable
characteristics and elements of an effective national strategy in its Small Vessel Security
Strategy and implementation plan and it should evaluate the effectiveness of programs
intended to support small vessel security before including them as part of a solution to
improve security against the small vessel threats.

Additionally, one of the most significant challenges that remain is CBP’s efforts to
implement Section 1701 of the Implementing Recommendations of the 9/11 Commission Act
of 2007, which requires DHS to screen all cargo headed for the United States that is loaded
on or after July 1, 2012. To meet the goal of 100% screening, CBP has implemented the
Secure Freight Initiative to screen 100% of cargo from select ports. However, there are

45
   DHS-OIG, CBP’s Ability to Detect Biological and Chemical Threats in Maritime Cargo Containers, (OIG­
10-01, October 2009).

46
   DHS-OIG, DHS’ Strategy and Plans to Counter Small Vessel Threats Need Improvement, (OIG-09-100, 

September 2009). 



                                                                                                      31
numerous challenges that remain before this can be implemented for all cargo inbound to the
U.S. Chief among these challenges is obtaining international agreements for 100% scanning
and working with the international community to resolve issues concerning resources, costs,
timing, and enforcement considerations.




                                                                                         32
Appendix A
Report Distribution


      Department of Homeland Security

      Secretary
      Deputy Secretary
      Chief of Staff for Operations
      Deputy Chief of Staff for Policy
      Deputy Chiefs of Staff
      General Counsel
      Executive Secretariat
      Director, GAO/OIG Liaison Office
      Assistant Secretary for Office of Policy
      Assistant Secretary for Office of Public Affairs
      Assistant Secretary for Legislative Affairs
      Under Secretary Management
      Chief Financial Officer
      Chief Information Officer
      Chief Security Officer
      Chief Privacy Officer

      Office of Management and Budget

      Chief, Homeland Security Branch
      DHS OIG Budget Examiner

      Congress

      Congressional Oversight and Appropriations Committees, as appropriate




                                                                              33
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
